August 14, 2008

LINDA J. WELCH
DISTRICT MANAGER, DALLAS CUSTOMER SERVICE DISTRICT

SUBJECT: Audit Report – Delayed Mail at the North Texas Processing and Distribution
         Center (Report Number NO-AR-08-006)

This report presents the results of our audit of delayed mail at the North Texas
Processing and Distribution Center (P&DC) in Coppell, Texas (Project Number
07XG028NO000). Our objective was to determine whether the North Texas P&DC
processed mail in a timely manner. This audit was conducted based on allegations of
delayed mail at the North Texas P&DC. Click here to go to Appendix A for additional
information about this audit.

Conclusion

During fiscal year (FY) 2007, the North Texas P&DC had difficulty with the timely
processing of all types of mail, resulting in significant increases in delayed mail
volumes. However, by March 2008, the North Texas P&DC had made significant
progress in reducing the amount of delayed mail.

Timeliness of Mail Processing at the North Texas Processing and Distribution
Center

We found the North Texas P&DC:

    •    Experienced a 206 percent increase in delayed mail in 1 year.1 In FY 2006,
         delayed mail totaled 35.7 million mailpieces; by the end of FY 2007, it totaled
         109.5 million mailpieces. Click here to go to Appendix B for our detailed analysis
         of this topic.




1
  The Postal Service has well-established criteria in this area. Title 39, U.S.C. Part 1, Chapter 1, Section 101, states
that the Postal Service “. . . shall provide prompt, reliable, efficient services to patrons in all areas. . .” In addition, the
Postal Service Strategic Transformation Plan, dated September 2005, states that the Postal Service “will continue to
provide timely, reliable delivery to every address at reasonable rates.”
Delayed Mail at the North Texas                                                                       NO-AR-08-006
 Processing & Distribution Center



    •    Incurred delayed mail volumes at the end of FY 2007 that were the 6th highest
         out of 36 group one facilities.2 Click here to go to Appendix B for details.

These delayed mail problems occurred because:

    •    Supervision was inconsistent.

    •    The operating plan did not include a current mail arrival profile, as required.3

    •     Employees did not use first-in, first-out (FIFO) procedures when staging mail.
          Click here to go to Appendix C for details.4

    •     Flat mail preparation operations were inadequately staffed. Employees who
          normally worked in flat mail preparation were often used to work on sack mail in
          the bulk mail center (BMC) or in other operations. Click here to go to
          Appendix D for details.

     •    The North Texas P&DC had bottlenecks of mail and equipment that often
          prevented trucks from leaving on time.

As a result of these deficiencies, mail at the North Texas P&DC was often delayed.
This could result in late delivery and decreased customer satisfaction. However, during
the audit, delayed mail volumes began to decline. Delayed mail for the first 6 months of
FY 2008 averaged 5.7 million pieces monthly, a 53 percent decline from the average of
12.1 million delayed mailpieces experienced during the same period in FY 2007. With
continued management attention and the implementation of our recommendations,
delayed mail volumes at the North Texas P&DC should continue to decline.

We recommend the District Manager, Dallas Customer Service District, direct the Plant
Manager, North Texas Processing and Distribution Center, to:

    1. Ensure that supervisors oversee mail processing, monitor delayed mail regularly,
       and develop action plans, if necessary, to ensure the timely processing of mail.



2
  Mail processing facilities are divided into seven groups according to mail volume, with group one plants the largest
and group seven plants the smallest.
3
  An operating plan requires a current mail arrival profile, which is determined by the time of day that the facility
receives mail. The mail arrival profile is used to determine operational start-ups and staffing levels. (Handbook
PO-420, Small Plant Best Practices Guidelines, November 1999, Chapter 5.)
4
  The Postal Service uses a system of color-coding to facilitate the timely processing, dispatch, and delivery of
Standard Mail to meet established service standards. Color-coding allows mail to be put in sequence to ensure FIFO
processing. Mail is properly color-coded when it bears a color-code tag showing the date and time the mail arrived at
the facility. If Standard Mail is mixed with a higher class of mail, it loses its identity and is considered upgraded and
treated as the higher class of mail. (Postal Operations Manual, Issue 9, July 2002, updated with Postal Bulletin
revisions through August 3, 2006, pages 213 through 217.)



                                                            2
Delayed Mail at the North Texas                                                                 NO-AR-08-006
 Processing & Distribution Center


      2. Develop and implement a mail arrival profile to align current staff assignments
         with mail flow as part of the operating plan.

      3. Ensure that Standard Mail and Periodicals are staged and processed using first-
         in, first-out procedures.

      4. Rearrange Delivery Bar Code Sorters or move sort programs to different pieces
         of mail sorting equipment to eliminate bottlenecks in the dispatch of delivery point
         sequence mail.

    We recommend that the District Manager, Dallas Customer Service District:

      5. Direct that sack mail operations be returned to the Dallas Bulk Mail Center.

Management’s Comments

Management agreed with the findings and recommendations in the report. As
corrective actions, management established processes, began monitoring delayed mail,
created action plans, implemented a mail arrival profile within the operating plan,
adjusted staging areas, conducted training, and rearranged equipment. Management’s
comments, in their entirety, are included in Appendix E.

Evaluation of Management’s Comments

Management’s actions were proactive, and the deficiencies identified in the report have
been corrected. The U.S. Postal Service Office of Inspector General (OIG) considers
management’s comments responsive to the recommendations and management’s
corrective actions should resolve the issues identified in the report.

Other Matters: Web Mail Condition Reporting System Issues

The Postal Service uses the Web Mail Condition Reporting System (WebMCRS),
formerly the Daily Mail Condition Report, as a repository for information on mail
processing operations.5 During our observations at the North Texas P&DC, we noted
that daily mail counts were not conducted consistently.

This problem occurred because:

      •   Management did not provide standardized training in how to conduct daily mail
          counts.

      •   Employees who counted mail used different methods to record delayed mail
          volumes.

5
 The WebMCRS Training/User Guide, dated September 24, 2007, states, “All mail volume, regardless of the
amount, must be counted in the respective categories, including On-Hand, Plan Failure, and delayed volumes.”



                                                        3
Delayed Mail at the North Texas                                              NO-AR-08-006
 Processing & Distribution Center



   •   The facility did not use a standardized form to record the daily mail count.

As a result, the North Texas P&DC may not be able to rely on WebMCRS data to
achieve operational targets or analyze operational trends.

We did not make a recommendation on this issue because the Postal Service is in the
process of issuing a new color-coding policy. The new policy along with the associated
training should address this consistency issue.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James Ballard, Director,
Network Processing, or me at (703) 248-2100.


     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan, Jr.
    Anthony M. Pajunas
    Ellis A. Burgoyne
    Timothy J. Vierling
    Katherine S. Banks




                                             4
Delayed Mail at the North Texas                                                                     NO-AR-08-006
 Processing & Distribution Center


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The North Texas P&DC, located in Coppell, Texas, is part of the Dallas Customer
Service District of the Southwest Area. In FY 2007, the North Texas P&DC processed
more than 1.65 billion first handling pieces (FHP) using approximately 2.23 million
workhours. From FYs 2004 to 2007, the national trend was a 1 percent decrease in
FHP; however, in the same period, FHP at the North Texas P&DC increased by more
than 9 percent. The OIG initiated this audit based on allegations of delayed mail at the
North Texas P&DC.

The Postal Service considers mail delayed when it is not processed or dispatched to
meet its programmed delivery day. The Postal Service recognizes that some delayed
mail is expected. The Postal Service defines a service standard as

         A stated goal for service achievement for each mail class. A service
         standard represents the level of service that the United States Postal
         Service strives to provide its customers. . . .6

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the North Texas P&DC processed mail in a
timely manner. To achieve this objective, we observed processing operations at the
North Texas P&DC from December 2007 through January 2008; analyzed mail volume,
service scores, and delayed mail trends; and interviewed Postal Service officials and
employees. We used computer-processed data from the following systems:

    •    Web Enterprise Information System
    •    Web End-of-Run System
    •    WebMCRS
    •    Management Operating Data System (MODS)

We did not test controls over these systems. However, we checked the reasonableness
of results by confirming our analyses and results with Postal Service managers and
multiple data sources. In addition, an OIG review concluded that MODS data were valid
and reliable for the purposes for which the Postal Service uses the data.7

We conducted this performance audit from May 20078 through August 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those

6
  The standards allow for ranges by mail classes: Priority Mail®, 1-3 days; First-Class Mail®, 1-3 days; Periodicals,
1-7 days; Package Services, 2-9 days; and Standard Mail®, 3-10 days.
7
  Management Operating Data System (Report Number MS-AR-07-003, dated August 6, 2007).
8
  The audit project was suspended because of other priorities, and a second entrance conference was conducted on
October 29, 2007, when fieldwork resumed.

                                                          5
Delayed Mail at the North Texas                                                   NO-AR-08-006
 Processing & Distribution Center


standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on February 20, 2008, and
included their comments where appropriate.

PRIOR AUDIT COVERAGE

The table below lists four reports issued by the OIG on the subject of delayed mail.

 Report Title          Report       Final Report             Report Results
                       Number           Date
Delayed Mail at     NO-AR-08-002    March 13, 2008    We recommended management
the Waco                                              ensure that supervisors oversee
Processing and                                        mail processing, monitor delayed
Distribution                                          mail regularly, and develop action
Facility                                              plans, if necessary, to ensure the
                                                      timely processing of Standard
                                                      Mail; develop and implement a
                                                      mail arrival profile; and relocate
                                                      accumulated mail transport
                                                      equipment to allow full use of the
                                                      mail processing floor.
Timeliness of       NO-AR-07-012    September 28,     We recommended management
Mail Processing                     2007              provide consistent, high-quality
at the Chicago,                                       supervision and training; improve
Illinois Cardiss                                      planning; make employees
Collins                                               accountable; and continue
Processing and                                        monitoring and adjusting mail
Distribution                                          processing operations to ensure
Center                                                the timely processing of mail
Timeliness of       NO-AR-07-001    February 9,       We recommended management
Mail Processing                     2007              correct deficiencies in the
at the Los                                            processing of Periodicals and
Angeles,                                              Standard Mail.
California
Processing and
Distribution
Center
Mail Processing     NO-AR-07-007    August 6, 2007    We recommended management
at the                                                implement procedures for sending
Southeastern                                          mail to other facilities for final
Pennsylvania                                          processing when volume at the
Processing and                                        Southeastern P&DC exceeds
Distribution                                          capacity, and instruct plant
Center                                                managers to process mail using
                                                      the FIFO method.




                                                  6
Delayed Mail at the North Texas                                         NO-AR-08-006
 Processing & Distribution Center


               APPENDIX B: TIMELINESS OF MAIL PROCESSING
        AT THE NORTH TEXAS PROCESSING AND DISTRIBUTION CENTER

In FY 2006, the North Texas P&DC had a total of 35.7 million pieces of delayed mail.
By the end of FY 2007, total delayed mail volumes had increased to more than
109.5 million pieces, a 206 percent increase. At other group one plants, delayed mail
volume decreased by an average of 20 percent during the same period. See the tables
below for details.

                                    Table 1.
            Comparison of Delayed Mail Processing at North Texas P&DC
                   to Other Group 1 Plants, FY 2006 to FY 2007

                  Delayed Mail Volumes at
                                               Total Delayed Mail
                     North Texas P&DC
                          FY 2006                 35,771,361
                          FY 2007                 109,482,417
                 Percentage change, FY 2006        +206.06%
                         to FY 2007

                Total Delayed Mail Volumes
                at Group 1 Plants (Excluding   Total Delayed Mail
                     North Texas P&DC)
                          FY 2006                2,789,901,768
                          FY 2007                2,227,869,316
                Percentage change, FY 2006          -20.15%
                         to FY 2007




                                          7
Delayed Mail at the North Texas                                                        NO-AR-08-006
 Processing & Distribution Center




                                     Table 2
             Changes in Delayed Processing of Mail at North Texas P&DC
                              From FYs 2006 to 2007

                                     Flats and                           Priority Mail and
                                    Periodicals          Letters            Packages                    Totals
 Delayed mail in mailpieces,
                                    22,808,646         12,903,703             59,012                  35,771,361
 FY 2006
 Delayed mail in mailpieces,
                                    49,920,165         59,499,472             62,780                 109,482,417
 FY 2007
 Percentage difference
 between FYs 2006 and               +118.87%            +361.10%             +6.39%                   +206.06%
 2007



                                       Table 3
                  Average Total Delayed Mail at North Texas P&DC for
             First 6 Months of FY 2007 Compared to Same Period FY 2008

                                                      October 1, 2006, through       October 1, 2007,
                                                          March 31, 2007         through March 31, 2008
 Total delayed mail in mailpieces                           72,536,331                 34,082,526
 Number of months                                                 6                        6
 Average delayed mailpieces per month for first             12,089,389                   5,680,421
 6 months of each FY
 Percentage reduction in delayed mail between
 first 6 months of FY 2007 and same period
 FY 2008                                                                                     53




                                                  8
Delayed Mail at the North Texas                                                  NO-AR-08-006
 Processing & Distribution Center




                                                           Table 4

                                    FY 2007 Total Delayed Mail at Group 1 Facilities


                                            Group 1 Total Delayed Mail FY 2007
           450,000,000
           400,000,000
           350,000,000
           300,000,000
           250,000,000
           200,000,000
           150,000,000
           100,000,000
            50,000,000
                     0




                                                               9
Delayed Mail at the North Texas                             NO-AR-08-006
 Processing & Distribution Center


         APPENDIX C: OBSERVATIONS OF FLAT MAIL PROCESSING
      AT THE NORTH TEXAS PROCESSING AND DISTRIBUTION CENTER

On Thursday, November 29, 2007, between 4:00 p.m. and 10:00 p.m., auditors
observed staged flat mail at the North Texas P&DC. In the mail preparation area
by the Automated Package Processing System (APPS), we noted four wire
containers of Periodical mail dated November 26, 2007, and 14 wire containers
of Periodical mail dated November 27, 2007. We also observed a mail handler
pulling one wire container of Periodical mail dated November 28, 2007, and
proceeding to the flat mail preparation area to process that mail. This
observation showed that the North Texas P&DC was not using the FIFO method
to process Periodicals mail.




From 11:00 p.m. on Thursday, December 6, to 1:45 a.m. on Friday, December 7,
2007, auditors observed staged flat mail at the North Texas P&DC. We noted
that 15 Ergo carts or wire containers (containing flat buckets) were prepared and
ready for processing on the Automated Flat Sorting Machine (AFSM). Ten of
these containers were labeled “12/4 Periodicals,” three were labeled “12/5



                                       10
Delayed Mail at the North Texas                                                 NO-AR-08-006
 Processing & Distribution Center


Periodicals,” and two were labeled as Wednesday (green)9 Standard Mail. All
15 carts contained delayed mail.




9
  The National Color Code Policy is designed to help ensure the timely processing, dispatch and delivery of
standard mail within established standards. Standard mail is coded with the colored tag representing the
day that the mail is to be processed.

                                                     11
Delayed Mail at the North Texas                                                 NO-AR-08-006
 Processing & Distribution Center


During the same period, near the APPS area, we found at least 66 containers of
delayed mail. These containers held Periodicals mail and were dated December
3 through 6, 2007. This observation also showed that mail was commingled and
not staged using the FIFO method.




We also observed 100 wire containers of flat mail that had been processed on
the APPS and staged in the annex10 area. This mail was ready for flat mail
preparation before it was processed on the AFSMs. In the photograph below,
Friday (yellow) Standard Mail was stored in front of older Standard Mail with
Wednesday (green) processing tags.

The mail containers were not organized to facilitate FIFO processing, and some
older mail was stacked in rows that were five containers deep. Wire containers
for Standard Mail were intermingled with containers for Periodicals mail, and
dates and colors were dispersed among the staged containers. We observed
Tuesday (orange) mail staged behind two other containers of newer mail. The
Tuesday mail had been placed against a solid rail and could not be taken for


10
  The Annex to the North Texas P&DC is an addition to the original building. It houses cancellation
operations and provides additional floor space for working or storing mail.

                                                    12
Delayed Mail at the North Texas                            NO-AR-08-006
 Processing & Distribution Center


processing unless the newer containers in front were moved out of the way.
Some of this mail was delayed.




                                      13
Delayed Mail at the North Texas                             NO-AR-08-006
 Processing & Distribution Center




      APPENDIX D: SACK MAIL FROM DALLAS BULK MAIL CENTER
     PROCESSED AT NORTH TEXAS PROCESSING AND DISTRIBUTION
                            CENTER

The North Texas P&DC processed some sacks of Periodicals mail that had been
processed at the Dallas BMC until 4 years ago. At that time, the former district
manager moved sack mail processing to the North Texas P&DC in an effort to
address customer complaints about mail service from the Dallas BMC. The
North Texas P&DC processed this mail on a manual belt built specifically for this
operation.

Management at the North Texas P&DC stated that the facility did not receive any
additional staff when the operation was moved. The operation uses about 32
workhours daily. Management said these hours could be better used to address
staffing shortages in flat mail preparation.




                                       14
Delayed Mail at the North Texas                     NO-AR-08-006
 Processing & Distribution Center


                      APPENDIX E: MANAGEMENT’S COMMENTS




                                     15
Delayed Mail at the North Texas          NO-AR-08-006
 Processing & Distribution Center




                                    16
Delayed Mail at the North Texas          NO-AR-08-006
 Processing & Distribution Center




                                    17
